<html>
<title> - FEDERAL IT MODERNIZATION: HOW THE CORONAVIRUS EXPOSED OUTDATED SYSTEMS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       FEDERAL IT MODERNIZATION:
                      HOW THE CORONAVIRUS EXPOSED
                            OUTDATED SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2020

                               __________

                           Serial No. 116-104

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-183 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman


Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
              Wendy Ginsberg, Subcommittee Staff Director
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Gerald E. Connolly, Virginia, Chairman
Eleanor Holmes Norton, District of   Jody B. Hice, Georgia Ranking 
    Columbia                             Minority Member
John P. Sarbanes, Maryland           Thomas Massie, Kentucky
Jackie Speier, California            Glenn Grothman, Wisconsin
Brenda L. Lawrence, Michigan         Gary Palmer, Alabama
Stacey E. Plaskett, Virgin Islands   Ralph Norman, South Carolina
Ro Khanna, California                W. Gregory Steube, Florida
Stephen F. Lynch, Massachsetts
Jamie Raskin, Maryland
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2020....................................     1

                               Witnesses

Gordon Bitko, Senior Vice President of Policy, Information 
  Technology Industry Council
Oral Statement...................................................     6

Matthew Cornelius, Executive Director, Alliance for Digital 
  Innovation
Oral Statement...................................................     7

Steve O'Keeffe, Founder, MeriTalk
Oral Statement...................................................    10

Hana Schank, Director of Strategy, Public Interest Technology, 
  New America
Oral Statement...................................................    11

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

  * Questions for the Record: to Mr. Gordon Bitko; submitted by 
  Chairman Connolly.

  * Questions for the Record: to Mr. Matthew Cornelius; submitted 
  by Chairman Connolly.

  * Questions for the Record: to Mr. Steve O'Keeffe; submitted by 
  Chairman Connolly.

  * Questions for the Record: to Ms. Hana Schank; submitted by 
  Chairman Connolly.

  * Questions for the Record: to Mr. Gordon Bitko; submitted by 
  Rep. Jody Hice.

  * Questions for the Record: to Mr. Matthew Cornelius; submitted 
  by Rep. Jody Hice.

  * Questions for the Record: to Mr. Steve O'Keeffe; submitted by 
  Rep. Jody Hice.

  * Questions for the Record: to Ms. Hana Schank; submitted by 
  Rep. Jody Hice.

 
                       FEDERAL IT MODERNIZATION:
                      HOW THE CORONAVIRUS EXPOSED
                            OUTDATED SYSTEMS

                              ----------                              


                         Monday, July 20, 2020

                   House of Representatives
      Subcommittee on Government Operations
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 1:38 p.m., in 
room 2154, Rayburn House Office Building, Hon. Gerald E. 
Connolly (chairman of the subcommittee) presiding.
    Present: Representatives Connolly, Norton, Plaskett, 
Khanna, Lynch, Raskin, Hice, Massie, Grothman, Norman, Steube, 
and Comer (ex officio).
    Mr. Connolly. The hearing will come to order, and I welcome 
everybody to this hybrid hearing. Both Ranking Member Mr. Hice 
and myself have wanted to have hearings resume in person, 
especially when we are in session, and I made a promise to Mr. 
Hice that I would fight for that, and today is the fruit of 
that effort.
    I believe when we're in session, to the extent possible, 
protecting everybody's health and safety, we can and should be 
meeting like this in at least hybrid form. Those members who 
are not comfortable or physically cannot join us in the hearing 
room are more than welcome to join us through webinar, and 
we're happy to have them.
    We ask everybody, when they are not speaking, to wear a 
mask. That is the guidance of the Capitol Hill Physician, that 
is the guidance of the chairwoman of this committee, and it 
protects everybody. I really appreciate that cooperation.
    Let me see. For members appearing remotely, just a few 
reminders before I give my opening statement. House rules 
require that we see you. So, please have your cameras turned on 
at all times during the course of the hearing. Members who are 
not recognized should remain muted so we minimize background 
noise and feedback.
    I'll recognize members verbally, and members retain the 
right to seek recognition, if they can let us see through 
either our staff or have your staff contact our staff, and 
we'll be glad to try to make sure you get recognized. You can 
use the chat function to send a request. And if none of all 
that works, you can unmute your mic and seek recognition.
    We're going to try to minimize, obviously, people talking 
over each other.
    These aren't ideal circumstances, but we are in the midst 
of a pandemic that, tragically, is growing rather than 
contracting, and so we want to make sure we are safe. A number 
of our colleagues and staff members, Capitol Hill Police, have 
come down with the virus, and we don't want to do anything 
unwittingly that could spread that contagion. So, we will do 
everything we can to try to make sure this is a safe 
environment in which to operate.
    With that, I recognize myself for my opening statement.
    The Federal Government's response to the pandemic has 
exposed some fundamental weaknesses that have to be fixed, 
especially legacy IT systems. Throughout this global health 
crisis, millions of Americans facing illness, unemployment, 
food insecurity, and an inability to pay their mortgages or 
rent have looked to the Federal Government for help.
    Yet despite urgent congressional action that provided 
unprecedented levels of economic assistance, those in need have 
often had their misery exacerbated by broken IT infrastructures 
at the Federal and state level that have prevented them from 
receiving timely support.
    The CARES Act, which was overwhelmingly passed on a 
bipartisan basis by this Congress, was signed into law on March 
27. It is now July 20. We still do not have the full postmortem 
on the failures of the Small Business Administration E-Tran 
system tasked with facilitating more than $750 billion dollars 
in small business loans and grants. The Internal Revenue 
Service has yet to deliver tens of millions of economic impact 
payments. And in my home state of Virginia certain types of 
unemployment claims will not be available until August due to 
the state's failure to update its IT systems.
    The public policy was there, but our IT systems often 
couldn't deliver. In other words, the fate of the world's 
largest economy rises and falls often with the ability of 
government IT systems to deliver in an emergency, and that 
should galvanize us all.
    It has been reported that 21 million people were unable to 
receive their CARES Act stimulus payments because IRS could not 
find accurate direct deposit information. Hundreds of thousands 
of small businesses were shut out of SBA's system for 
submitting loan applications. And for every ten people who 
successfully filed for unemployment, an additional three to 
four were unable to submit claims online. That's a big problem 
when we're looking at 31 million people on an ongoing basis who 
depend on the unemployment check every week.
    Issues with legacy IT systems are not news to us on this 
committee. We enacted the Federal Information Technology 
Acquisition Reform Act, FITARA, of which I was a proud co-
author, to help Federal agencies prioritize Federal IT 
modernization.
    And the Modernizing Government Technology Act, also coming 
out of this committee, was passed to enable agencies to 
establish working capital funds to help them use savings from 
IT modernization in order to further invest in upgraded agile 
systems and transition away from those legacy systems, legacy 
systems that are often 30 and 40 years old.
    The law also created, coming out of this committee again, 
the Technology Modernization Fund, which established a 
government funding source for agencies to remove and replace 
those legacy systems and upgrade their own. Yet the TMF remains 
chronically underfunded, and outgoing Chief Information Officer 
Suzette Kent has identified this underfunding as illustrative 
of the small-bore thinking that, unfortunately, has prevailed 
when it comes to making IT investments.
    Agencies responsible for performing critical government 
functions operate on legacy systems with components sometimes 
dating back even 50 years.
    The Government Accountability Office found that the ten 
most critical Federal IT legacy systems in need of 
modernization are maintained by ten different Federal agencies, 
each performing essential government operations. As they age, 
these legacy systems become more expensive to maintain, more 
vulnerable to cyber-attacks, less effective in accompanying 
agency missions.
    If FEMA's public alert and warning system fails, millions 
of lives could be lost during a natural disaster because life-
saving information was not delivered to the public in time. If 
the Department of the Interior system that monitors power 
plants stalls, thousands of communities could be left without 
power.
    Simply put, outdated and inefficient systems put American 
lives, as well as livelihoods, at risk.
    As we heard from organizations representing Federal workers 
in a subcommittee hearing two weeks ago, agencies have been 
able to leverage telework to ensure the continuity of 
government operations, while also protecting the health and 
safety of Federal workers. Nonetheless, the large-scale shift 
to telework exposed critical cybersecurity vulnerabilities 
underlying that outdated IT.
    Since the pandemic hit, IGs, inspectors general, have 
reported increased risks of data security breaches, disclosures 
of classified information, and targeted cyber-attacks and fraud 
schemes affecting financial aid to small business and people 
affected by the pandemic.
    Going forward, Federal agencies will need to quickly retire 
their legacy systems and prioritize modernizing IT, like 
adopting cloud computing technologies through FedRAMP, a 
program that enables agencies to quickly secure and adopt new 
technologies. And I'm grateful for the fact that in the defense 
authorization bill we're considering today on the floor, in the 
first en bloc group of amendments our FedRAMP bill that came 
out of this committee is included.
    In 2019, 13 agencies reported to GAO that they achieved at 
least $291 billion in savings from increasing their investments 
in cloud technologies. I hope we can continue to advance the 
bipartisan FedRAMP Authorization Act that passed the House by 
voice vote into law and signed by the President on a bipartisan 
basis.
    Modern, reliable IT is not just a nice thing to have. Our 
Federal Government's consistent failure to prioritize IT 
modernization and program delivery prevented the public from 
receiving the assistance Congress authorized to help the Nation 
weather one of the worst global pandemics in a hundred years. 
We can no longer allow outdated, legacy technology to stymie 
the delivery of vital public services. We will need to rip out 
root and stem systems that have hung around for decades because 
the replacement costs have been prohibitively expensive, 
because if doing so is a matter of being able to save the 
American economy from collapse, almost anything is cheap by 
comparison.
    With that, I call upon the distinguished ranking member for 
his five-minute opening statement.
    Mr. Hice. Thank you very much, Mr. Chairman. I appreciate a 
great deal you working with us to make this hearing happen. I 
really am grateful for that.
    I would say, though, that guidance to wear masks are one 
thing and committee rules are another. There's no question that 
in this room right here we are well beyond the guidance that 
the CDC recommends, and we have had some who are not here today 
because they feel as though we are too strict in the 
requirement of the mask.
    So, I would ask as we go forward that we would continue to 
work through this to see how we can accommodate all members who 
would like to participate in hearings within the CDC guidelines 
as well.
    Mr. Connolly. I will, as I have on having a hearing 
physically, as my friend knows, I will work as diligently as I 
can with him. I will, however, note that the committee is 
following the guidance of the Capitol Hill Physician, who more 
than strongly recommends the wearing of a mask. It isn't just 
CDC guidance.
    So, we will try to work through that with you. And I really 
appreciate all of my colleagues trying to respect everybody's 
health and safety today.
    Mr. Hice. Right. I know you will, and I look forward to 
those further conversations. But on behalf of others who feel a 
little bit differently, I would appreciate that continued 
conversation. Thank you very much.
    I also appreciate, Mr. Chairman, the fact of you holding 
this particular hearing on Federal IT modernization. I think we 
are all very much aware of the need for modernization in this 
area. The lack thereof certainly exposes us to security risks, 
as well as the inability for flexibility and scaling up.
    Ultimately our agencies were incapable of meeting the needs 
and the responsibilities they are required to do, and yet we, 
as a government, continue to spend the majority of our budget 
on maintaining these legacy systems rather than taking us into 
the new era of computer needs.
    For example, from 2010 to 2017, over $450 billion was spent 
just to keep legacy systems running. Of course, that also 
represents $450 billion that was not able to be used for new 
technology. And at the same time, of course, technology 
continues to move forward and improve while we are slow to 
procure any new capabilities whatsoever.
    So, it's time for us to look at reform. It's time for us to 
look at changes. How do we go about getting up to date? There's 
no reason that we don't do so.
    I very much look forward to our witnesses today and 
appreciate you being here as we try to consider ways to reform 
the IT acquisition process and to prevent agencies from trying 
to reinvent the wheel, particularly when potential solutions 
already exist in the commercial marketplace.
    So, specifically this committee is interested, I believe, 
in learning how and what Congress needs to do to help agencies 
overcome some of the challenges that are presented by annual 
funding cycles that, frankly, makes it very difficult to tackle 
as it relates to IT modernization.
    I'm hoping today that our witnesses will be able to help 
this committee understand how we can improve this whole 
process, and particularly the Technology Management Fund, to 
help the government replace limited systems. We've got to 
become more modern and up to date rather than continuing to 
rely upon agile old systems.
    Finally, I think there's got to be some accountability in 
this whole process to keep agencies responsible for the 
progress that they are making. Of course, there have been many 
hearings we've already had on the FITARA Scorecard. Somewhere 
along the way, though, there must, it appears to me, be some 
sort of incentive that must be involved to help agencies come 
along and to improve.
    So, I look forward to hearing all these types of things as 
we move forward with the hearing today, and I'm hopeful that 
you will be able to supply some of those answers. I want to, 
again, thank all of our witnesses for being here today as we 
participate in this hybrid hearing.
    Mr. Chairman, with that, I'll yield back.
    Mr. Connolly. I thank my friend, and he makes some really 
good points.
    By the way, our next FITARA hearing is Monday. It is the 
tenth hearing we will have had on the implementation of FITARA. 
And the good news is, I think, for the first time since we 
passed the bill, there are no F's and no D's in the scorecard. 
So, we've made some progress. But we've still got to retire 
those legacy systems you were talking about, and that's going 
to require some finesse.
    So, I thank the distinguished ranking member.
    I would like to introduce our witnesses. Our first witness 
today is Gordon Bitko, who is senior vice president of policy 
for the Information Technology Industry Council.
    We're also joined by Matthew Cornelius, who is here 
physically, who's the executive director of the Alliance for 
Digital Innovation.
    We'll also hear from Steve O'Keeffe, the founder of 
MeriTalk and somebody who actually was the inspiration for the 
FedRAMP legislation and has done a lot to try to translate the 
FITARA Scorecard into more digestible ways that I think have 
been very helpful.
    Our final witness will be Hana Schank, who's the director 
of strategy for New America.
    If our three witnesses who are remote and Mr. Cornelius, if 
you would rise and raise your right hand. It is the practice of 
our committee to swear in our witnesses. And if the other three 
witnesses can raise their right hand? All of you confirm you 
are doing so?
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record show that the witnesses have indicated in 
the affirmative.
    Thank you.
    Without objection, written statements will be made a part 
of the record. We ask all of our witnesses to try to summarize 
their testimony within the five-minute time limit.
    With that, Mr. Bitko, you are recognized for your 
testimony.

  STATEMENT OF GORDON BITKO, SENIOR VICE PRESIDENT OF POLICY, 
                 INFORMATION TECHNOLOGY COUNCIL

    Mr. Bitko. Good afternoon, Chairman Connolly, Ranking 
Member Hice, and distinguished members of the subcommittee. 
Thank you for inviting me to testify today. It is a privilege 
to discuss Federal IT modernization issues with you.
    My name also Gordon Bitko, and I'm the senior vice 
president for public sector policy at ITI, the Information 
Technology Industry Council. Previously, I was the CIO at the 
FBI for 3-1/2 years, and I have more than 25 years of 
experience as a technologist and technology manager across the 
public and private sectors.
    ITI represents more than 70 leading IT companies who 
believe it is more important than ever for the U.S. Government 
and our member companies to work together in support of 
policies that promote effective government through 
technological leadership.
    The U.S. public sector must leverage this innovation and 
leadership by adopting policies that enable easier use of 
commercial products and services that provide security, 
agility, scalability, and elasticity that support the enormous 
growth in demand for digital services and data.
    That imperative to modernize is true at every government 
agency, and the ongoing pandemic, with the vast increase in 
remote work, has only accelerated the need for change.
    The ability for Federal agencies to shift to large-scale 
telework during the pandemic is the result of some of the 
transformative activities of recent years, such as migration to 
commercial providers for at least some critical infrastructure 
and services.
    But incremental change is insufficient in the face of 
exponential growth. When stressed enough, legacy systems fail 
catastrophically. We saw this in multiple state unemployment 
systems, but many Federal agencies also provide critical 
services through decades-old systems.
    Providing the quality of service that Americans expect and 
deserve means these systems must modernize. Technological 
transformation can only happen if there's consistency and a 
dedication to both providing funding and addressing the 
policies and practices that restrain innovation and 
modernization in government information technology.
    The Department of Justice Data Center Consolidation 
Initiative highlights many inhibitors of innovation. Starting 
in 2014, DOJ planned to consolidate to three core facilities 
with two owned and operated by the FBI, including a newly 
funded center constructed at an existing facility in Idaho. An 
RFP was posted in February 2016, groundbreaking occurred in 
October 2017, the building opened last November, and full 
operation is scheduled for this September.
    It will already be out of date. Two years ago, commercial 
providers consulted about providing services using the facility 
declined. It already fell short of their technical 
requirements.
    A new facility enabling DOJ to close multiple data centers 
is progress. Data center metrics will improve and some 
applications will modernize. But it will never be a state-of-
the art facility and will continue to host legacy systems 
subsisting on O&M budgets.
    Meanwhile, systems able to invest in modernization will 
migrate to commercial providers with innovative technologies 
and resources that dwarf DOJ's.
    The government's limited technical and contract expertise, 
risk aversion, process inefficiencies, unpredictable funding, 
and inflexible construction processes all contribute to 
timelines much longer than commercial best practices. At the 
same time, the lack of multi-year IT modernization funding 
means that legacy applications endure.
    Federal IT isn't held together by duct tape. There are 
excellent professionals throughout government delivering 
quality information technology capabilities. But the reality 
is, it is still too hard for them to get to the front lines and 
focus on core long-term agency challenges.
    When government has defined unnecessarily complex 
requirements based on data business processes, the overhead of 
a customized solution has often made projects late, over 
budget, and underused.
    But when the government has well-defined objectives and 
smartly engaged with industry, the result has been successful 
and cost-effective commercial services securely provided at 
speed and scale.
    Adopting this approach empowers industry to create world 
class services for government, drive competition by leveraging 
standards, and encourage innovation by opening markets to new 
companies, products, and services.
    At the same time, IT budget and acquisition processes must 
evolve to allow and empower the Federal work force to leverage 
commercial capabilities.
    Transformational change requires long-term strategic and 
financial commitments. The annual budget cycle forces agency IT 
planning staffs to spend too much time managing the budget 
process and too little time ensuring projects and programs are 
well managed and well funded.
    However, those same IT planning staffs need to adopt a 
continuous delivery mindset. They shouldn't be managing 
projects on traditional schedules but rather on outcomes, like 
the delivery capabilities that improve the mission and their 
use, both within and outside the agency. And government 
processes and tools for managing IT investments, such as the 
FITARA Scorecard and the Federal IT Dashboard, need to be 
updated to reflect those modern realities of IT development.
    Thank you again for inviting me, and I look forward to your 
questions.
    Mr. Connolly. Thank you very much.
    Mr. Cornelius, you're recognized for five minutes.

 STATEMENT OF MATTHEW CORNELIUS, EXECUTIVE DIRECTOR, ALLIANCE 
                     FOR DIGITAL INNOVATION

    Mr. Cornelius. Chairman Connolly, Ranking Member Hice, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today on the vitally important topic of 
Federal IT modernization.
    My name is Matthew Cornelius, and I'm the executive 
director of the Alliance for Digital Innovation. We're a 
nonprofit organization made up of nearly two dozen of America's 
leading commercial technology companies which focuses on 
empowering the government to deliver the effective digital 
experiences that citizens deserve.
    Our companies have a successful track record of 
modernization in large, complex enterprises across both the 
public and private sector. And we at ADI are keenly aware that 
the government's continued reliance on outdated, insecure 
legacy technology fundamentally obstructs the creation of a 
modern, secure digital government.
    Today I will share our perspective on both the challenges 
and opportunities agencies face and will offer some 
recommendations to improve the speed, scale, and likelihood of 
success in modernizing legacy IT.
    Prior to ADI, I had the privilege of serving in senior 
Federal IT policy roles in both the Office of Management and 
Budget and the General Services Administration, where I led the 
creation and execution of several key governmentwide technology 
efforts, including the IT Modernization CAP Goal and the 
President's Management Agenda, and the Technology Modernization 
Fund. I highlight these additional experiences as I believe 
they provide me with a unique understanding of IT modernization 
I can share with you today.
    When I describe the government's legacy problem, I want to 
note that it goes far beyond certain systems that are decades 
old. It is a cultural problem both inside government and out.
    For starters, the government is averse to market pressures 
and often relies on a woefully outdated business model that 
prioritizes building and owning technology solutions inside 
agencies.
    In addition, there is little alignment of agency 
procurement and financial management processes to commercial 
best practices, and agencies rarely have the appropriate 
incentives to modernize effectively and partner with truly 
innovative companies to drive mission outcomes.
    The recent report by the Pandemic Accountability Committee 
highlighted IT and cybersecurity as two major challenges faced 
by agencies during the response to COVID-19. However, the 
report also pinpointed numerous examples, such as the 
Department of Health and Human Services, the Nuclear Regulatory 
Commission, and the Department of Defense, who have been able 
to deal with the significant disruptions of COVID-19 because 
they were already investing significantly in cloud computing 
and had enhanced both their telework capabilities and digital 
workflows.
    Such examples are possible because these agencies had a 
commitment to IT modernization from senior leadership, a work 
force able to effectively buy and deploy these new 
technologies, and a culture that embraces innovation.
    Still, more can be done. A second key to empowering and 
accelerating IT modernization is to ensure that agencies can 
easily and effectively acquire and use commercial capabilities 
to achieve mission outcomes.
    While some public sector agencies are embracing cloud and 
other emerging technologies, too many are hamstrung by 
technical debt and procurement paradigms that lead to wasteful 
spending and poor customer satisfaction.
    ADI has written extensively on the need for government to 
follow current law, such as the Federal Acquisition 
Streamlining Act, which establishes a commercial-first 
framework. Government must prioritize the acquisition of 
commercial off-the-shelf solutions, which are easier to embed 
across the agency's IT enterprise, are more secure, and cost 
substantially less than bespoke agency-specific systems.
    Third, successful IT modernization requires many years of 
sustained investment and the ability of agency leaders to make 
adjustments and address challenges that occur along the way.
    Unfortunately, the budgeting and appropriations processes 
rarely provide the necessary flexibility to drive true digital 
transformation. The current model restricts the ability of 
agencies to both plan and invest wisely in modernization.
    The expansion of IT Working Capital Funds, as envisioned 
under the MGT Act, would allow agencies to make smarter long-
term investments. Additionally, ADI supports providing 
significantly more money to the Technology Modernization Fund 
so the government can support digital transformation across the 
Federal enterprise.
    Finally, there are several options Congress may consider to 
help accelerate IT modernization. For example, Congress should 
overhaul decades-old laws, such as Clinger-Cohen and the E-
Government Act, to provide a current sustainable foundation for 
IT modernization more aligned to today's technology 
environment.
    Congress should also build on its oversight successes made 
possible by the FITARA Scorecard to update current metrics and 
include new ones, such as cloud adoption, FedRAMP authorization 
and reuse, and the acquisition of commercial items.
    Additionally, Congress can continue encouraging agencies to 
prioritize training the Federal work force on current 
procurement, cybersecurity, and digital capabilities. 
Modernization is impossible without a highly skilled, capable 
work force.
    Most importantly, Congress should continue to make IT 
modernization a critical issue that unites both parties, both 
Chambers of Congress, and both the legislative and executive 
branches.
    In conclusion, IT modernization is vital not only because 
it saves money and enhances cybersecurity, it is the primary 
means for agencies to competently and capably deliver important 
citizen services to the American people.
    ADI is proud to highlight the modernization successes 
happening across the Federal enterprise and to share our 
insights on eliminating costly, wasteful legacy IT.
    Thank you again for the opportunity to appear here today. I 
look forward to your questions.
    Mr. Connolly. Thank you very much, Mr. Cornelius. I can 
assure you every single major vote on this committee, since I 
have been here, on this subject has been bipartisan. We have 
never had a partisan vote. In fact, it would be hard to tell 
the difference between us when we start talking about it. So, 
I'm very proud of that.
    Mr. O'Keeffe, you're recognized for five minutes.

         STATEMENT OF STEVE O'KEEFFE, FOUNDER, MERITALK

    Mr. O'Keeffe. Thank you.
    Chairman Connolly and distinguished members of the 
subcommittee, thank you for the opportunity to speak today. 
And, Chairman Connolly, thank you for your constant leadership 
on Federal IT and work force issues.
    My name is Steve O'Keeffe, and I'm the founder of MeriTalk, 
the leading government IT publication, research, and conference 
company.
    We are here for one reason: The pandemic made the Federal 
community--and, yes, Cabinet secretaries--and, for that matter, 
the American public--get the importance of Federal IT. It's 
Rodney Dangerfield and Winston Churchill here. ``We don't get 
no respect.'' And as Churchill famously told us, ``Never let a 
good crisis go to waste.''
    A quick ironic flashback. I testified on this very topic, 
the urgent need for speed in Federal IT modernization, a decade 
ago on the Senate side. I testified against then Federal CIO 
Vivek Kundra, who put forth a 25-point plan to modernize 
Federal IT. I argued that it was far too complex. There are 
only Ten Commandments. How can there be 25 points in the plan 
to fix Federal IT? And it proved true.
    Complexity is the No. 1 issue of Federal IT modernization. 
So, what to do? Well, this is like a five-minute Hamlet, so 
let's bid the players make haste.
    Act 1, attack complexity. The time is right for FITARA and 
MGT to shine. Moreover, these light house laws and Federal CIOs 
are mired in the slings and arrows of complexity. We need to 
cut to the quick.
    Consider that complexity. It really is an alphabet pea 
soup. We have FITARA. We have MGT. We have TMF. We have 
FedRAMP, DCOI, CoEs, CAP Goals. And I am just scratching the 
surface. This is madness.
    Let's just look at cybersecurity. It's CDM, TIC, FISMA, 
Einstein, and now DHS gives us QSMO. Even Einstein could not 
fathom all of that.
    How about we simplify and rebrand these initiatives and 
give them names that describe the function they perform and fit 
them together into a coherent narrative that explains the value 
they deliver? And what about we plug those programs all into 
FITARA with tangible outcomes and metrics associated.
    So, first off, let's attack complexity.
    Second, FITARA for the future, it's time to evolve. As we 
approach the 10.0 FITARA Scorecard, which I guess is coming out 
next week, the legislation has proved a huge success. So, 
congratulations.
    But five years is an eternity in the IT space, and it's 
time to modernize FITARA. Let's make the FITARA Scorecard real-
time, plugging the scoring criteria into the IT Dashboard, and 
let's make the FITARA IT Dashboard the ``to be or not to be'' 
of Federal IT. This would kill confusion about what's measured 
in FITARA and make FITARA the real-time epicenter in a 
radically simplified Federal IT government landscape.
    And as in Shakespeare's plays, relationships are very 
important. We need to wed FITARA and MGT. As you know, TMF was 
part of FITARA's first act. Let's hardwire MGT TMF funding into 
the FITARA Scorecard. Agencies that score below a C simply are 
not available to get TMF funds.
    The next point is appropriations, appropriations, 
appropriations. Let's consider the ghost in the hearing room on 
TMF. When TMF was originally part of the first FITARA package, 
the draft legislation called for $3 billion in annual funding. 
TMF has never been capitalized with more than $25 million and 
most years actually has been zero funded.
    We need to engage appropriators. Back to Churchill, we will 
never have a better opportunity to seize appropriators' 
attention. And, industry, here is an opportunity for you to get 
involved. Engage through the trade groups to talk to 
appropriators about this issue.
    My fourth point, danger ahead, IT's fallen relief funding. 
A note of caution. As we look to reinforce an evolved FITARA, 
we see new warning signs that point to new IT sprawl ahead. 
CARES and other pandemic relief bills provide welcome funding 
for IT modernization, but in many cases they cut an end run 
around the CIO's office and indeed FITARA. America needs the 
relief, but beware of sprawl and any subversive shadow IT 
subplots.
    Last, the next Federal CIO should come from inside the 
government IT. While I know that this committee does not pick 
the next Federal CIO, I would be remiss if I didn't make a plea 
for the next administration to select a Federal CIO that knows 
government IT from the start. I would laud Ms. Suzette Kent and 
Mr. Tony Scott, who acquitted themselves very, very well as 
Federal CIOs.
    However, bringing somebody in from outside government 
creates a massive learning curve. I already talked about the 
complexity. We should pick somebody that knows government IT. 
We have a lot of very qualified candidates.
    So, it's a play in five acts: attack complexity; evolve 
FITARA forward for the future; appropriations, appropriations, 
appropriations; look out for IT sprawl as we see relief funding 
coming in, much needed relief funding because we want to make 
sure it doesn't cut around the CIO's office and FITARA; and we 
need to choose wisely for our next Federal CIO. Federal IT 
experience will be a huge plus.
    Mr. Connolly. Thank you, Mr. O'Keeffe.
    Mr. O'Keeffe. Thank you.
    Mr. Connolly. Thank you very much.
    Hana Schank, you're recognized for five minutes.

STATEMENT OF HANA SCHANK, DIRECTOR OF STRATEGY, PUBLIC INTEREST 
                    TECHNOLOGY, NEW AMERICA

    Ms. Schank. Thank you for the opportunity to testify today. 
My name is Hana Schank, and I am the managing director of the 
Public Interest Technology Group at New America, a think and 
action tank, and I've spent over 25 years working in technology 
in both the public and private sectors.
    I want to start with a story.
    Lisa Charles lives outside of Charlottesville, Virginia. 
The 42-year-old divorced mother of two typically qualifies for 
the Earned Income Tax Credit. She works when she can, but 
spends the bulk of her time tending to her older son's severe 
medical problems. His endocrine system does not function 
properly, and he spends a lot of time in and out of the 
hospital.
    Because Charles was below the filing threshold and had not 
filed 2018 or 2019 taxes, she was one of an estimated 12 
million Americans who had to claim her stimulus check using the 
IRS's non-filer portal.
    In March, sitting beside her son at the hospital, she 
filled out the form. She really needed the money because she 
was behind on rent and facing eviction.
    To date, she has not received the stimulus money for her 
children or the $2,148 she qualifies for under the Earned 
Income Tax Credit.
    What Charles didn't understand is that the non-filer portal 
prevents its users from claiming the EITC. As a work-around to 
allow non-filers to claim a stimulus check, the portal files 
simple tax returns for its users, unbeknownst to Charles and 
millions of other Americans. So, when she attempted to claim 
the EITC, because she had used the portal, the IRS said she had 
already filed taxes and couldn't do so again.
    To remedy the situation, Charles must mail a 1040 form to 
the IRS and wait for the agency to work through its backlog to 
get to her. In the meantime, Charles' bills won't wait.
    When it comes to Federal IT failures, we are used to 
hearing stories about websites crashing or huge cost overruns 
and delayed launches. But Charles' story is, more and more, 
what Federal IT disaster stories will sound like.
    Unless the Federal Government changes its approach to 
technology, badly designed systems--layered on top of a badly 
thought through process--ending up in a total failure of 
service delivery for the people who need it most--is our 
future.
    Yes, it is true that the Federal Government often relies on 
IT systems that date back to the 1950's, which doesn't help 
matters. But two bigger issues created the Catch-22 that 
Charles and millions of others are caught in. And it is worth 
noting that while this example is specific to the IRS and the 
CARES Act, it could be happening with any agency and any new 
policy at any time.
    The first issue is that these systems were built for a time 
when people didn't use computers from home. They are built for 
phone, mail, fax, or in-person contact.
    The second issue is that when government implements a 
policy, that policy implicitly relies on existing IT to be 
delivered. But the policy creation process doesn't take 
delivery into account.
    Congress is used to enacting policy and having it then be a 
reality. In today's world, there is an entire technology 
component that must be put into place in order to make policy a 
reality.
    For something like the CARES Act, that money doesn't exist 
for the people who need it until they're able to successfully 
file for and receive it.
    This means that policymakers need to think about things 
like, how will people apply for this? What systems will this 
rely on, and what is the status of those systems? How will 
people track the progress of their applications, just as they 
can track a package they ordered online? This transparency into 
government processes is essential.
    Thinking about delivering means thinking about all the 
different types of people who might file for something, 
thinking about how they might file, and what might go wrong. 
Businesses would not survive without thinking this through, yet 
it mostly doesn't happen in Federal IT projects.
    So, what's the solution?
    First, there needs to be a modern technology work force 
inside the government, and this starts from the top. There must 
be a very senior person at each Federal agency who has a 
background in technology, who can bring that experience to bear 
on policy decisions.
    Second, all policy decisions must include a tested delivery 
plan. That should start here in Congress.
    Finally, I want to touch on cost savings. When IT fails, it 
is expensive. We see cost overruns into the billions of 
dollars.
    Bringing senior tech talent in-house, while potentially 
expensive as a line item, would likely lead to tremendous cost 
savings as there would be people who could advocate for 
building the right thing the right way the first time. There 
would be no need to patch unforeseen holes quickly as the IRS 
was forced to do with the CARES Act. Government would get it 
right, save money, and serve the people the way it is intended.
    Thank you.
    Mr. Connolly. Thank you, Ms. Schank. Thank you.
    I would note before calling on Ms. Norton, if you look at 
the FITARA Scorecard, Ms. Schank, you will see that one of the 
categories of the scoring is the empowerment of the CIO to make 
decisions at the top and to make sure that person reports to 
the boss so that we're empowering it and investing it with 
authority as well as responsibility.
    We also as part of FITARA, when we actually wrote the bill, 
were focused on the last point that you made, about bad 
projects, or projects that go bad, and being able to pull the 
plug quickly so that we minimize the fiscal damage. Again, 
FITARA encourages that and authorizes that.
    OK. Ms. Norton, are you with us? Delegate, Congresswoman 
Eleanor Holmes Norton, are you with us?
    Ms. Norton. Can you hear me now?
    Mr. Connolly. Yes, we can. Thank you.
    Ms. Norton. All right.
    Mr. Connolly. There you are.
    Ms. Norton. The first thing I want to do is to thank you 
for this hearing. It is a very important hearing. You and I 
both represent many Federal employees, so it's of special 
concern to us both.
    I do want to note that I have been concerned with the 
Federal work force for some time and had a bill in before we 
attained the majority aimed at recruiting new Federal workers. 
I was astounded to find out that essentially only 20 percent of 
Federal IT workers are under the age of 40, which meant that we 
were just losing out and losing all opportunities.
    And, Mr. Chairman, I do want to say that I did get back a 
thoughtful letter from Director Dale Cabaniss indicating some 
of the things that the Federal Government has been doing in 
order to try to help the Federal IT work force enter into the 
21st century.
    Ms. Schank, this failure, I want to focus on this really 
abject failure to modernize the IT in the Federal sector, 
whether that is simply resistance or failure to just keep up.
    Ms. Schank?
    Ms. Schank. The question is, to what degree is the lack of 
modernization due to resistance versus just lagging behind?
    Ms. Norton. Yes. Yes, active resistance as opposed to 
inhibitions on the agencies to move ahead.
    Ms. Schank. I don't think that it is resistance so much as 
just not having a clear way forward. You know, a lot of 
agencies have yet to see that without--that their policies 
are--the policy is reliant upon delivery and that delivery is 
reliant upon IT systems. So, because that connection hasn't 
been made, there is sort of a lack of, I think, interest or 
just understanding the importance of why you would want to 
bring people in to create a modern tech work force or why that 
is relevant to the agency's mission.
    Ms. Norton. This a question for any of you.
    Mr. O'Keeffe, I'll start with you. Have funds been at the 
bottom of this? If we were to somehow come forward with an 
appropriation, would that be enough to get the attention of 
those in the Federal agencies or is it other kinds of 
resistance?
    Mr. O'Keeffe. Thank you.
    I think funding is definitely a factor, and I talked about 
the requirement to fund the TMF as part of MGT and bring that 
together with FITARA.
    But I do feel like the biggest challenge overall, I don't 
think it's an active resistance issue, to your question 
earlier, it's the complexity of what's going on. It is an 
acronym soup, and it's a compliance culture.
    So, how do we simplify and provide greater transparency in 
order to move the ball forward? I think those are----
    Ms. Norton. But these workers who have been in the 
government for a very long time, do you think that we need 
wholesale retraining? You noted, quoted statistics showing that 
young people don't even want to come into the IT work force of 
the Federal Government. Is that the problem or is it a 
retraining problem?
    Mr. O'Keeffe. I think it's a problem on multiple fronts. 
So, yes, absolutely training is very important.
    I don't know that the Federal Government of late has been a 
particularly attractive employer for young people. Now, with 
the pandemic and the downturn in the economy, we'll probably 
see government jobs being more interesting.
    Ms. Norton. I must say that this would prove the notion, 
and they do say, OPM, that they do recruit. I think there is a 
major issue of how you make the Federal Government jazzy enough 
so that these young IT professionals want to come in.
    Mr. Cornelius----
    Mr. Connolly. I'm afraid the gentlelady's time has expired.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Connolly. Thank you, Ms. Norton.
    Mr. Hice, you're recognized for five minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Cornelius, as I understand it, one of the reasons 
Federal agencies do not readily purchase commercial off-the-
shelf items is because there's no incentive to prioritize those 
type of technologies over developed in-house type things. So, 
from that mentality, what kind of policy solutions do you think 
ought to be proposed in order to remedy that problem?
    Mr. Cornelius. Thank you, Congressman.
    So, there's a couple of things there, and I think both 
Congresswoman Norton's question and yours sort of dovetail 
together. So, part of it is incentives and part of it is an 
understanding.
    So, the work force that we should care about inside 
government is not just the IT work force when it comes to 
modernization. Everyone is an IT worker in government. Everyone 
uses and leverages technology to deliver the programs, the 
products, the services they're there to deliver.
    Therefore, we've got to make sure everyone has a relevant 
understanding of what's happening in the technology market so 
that when we actually do go out and try to procure the vast 
majority of the technology that is used in government, that the 
procurement executive, the technology executive, the finance 
executive, the H.R. executive, they all understand why the 
technology is important to them.
    So, understanding and creating a better sort of policy and 
understanding around how fast and how up to date the technology 
market is driving, that will create a better understanding so 
that when agencies are trying to either retire old bespoke 
systems or simply just acquire and use newly technologies to 
pilot them or to try and scale them in government, that they 
actually understand what is happening in industry so that they 
can leverage it more effectively.
    Mr. Hice. OK.
    Well, let me, Mr. Bitko, let me go to you right along this 
same train of thought here. During your time as the CIO with 
the FBI, what were some of your experiences trying to procure 
commercial IT solutions? And along those lines, to what extent 
were there incentives to purchase commercial?
    Mr. Bitko. Congressman, thank you for the question.
    There definitely are incentives for the IT individuals to 
procure commercial products. But as Mr. Cornelius said, the 
issue I think is that everybody is an IT worker, and the 
mission users of those systems, they know what they want. What 
they frequently want is not the commercial product but 
something that has been customized in some way. And the results 
when that happens is you take a lot of time taking the 
commercial products and customizing it into something that then 
becomes a legacy product that is difficult to maintain and 
support.
    I have a quick example that highlights that. For the FBI, 
the time and attendance system, you would think that that is a 
standard commercial product, right, that everybody tracks time 
and attendance in the government and wants to know how long 
everybody works.
    Well, the FBI had customized the time and attendance 
process over the years for a variety of reasons, some of them 
reporting to Congress or for internal management, but to the 
degree that the commercial product was no longer in sync with 
the customized version that the FBI was using.
    The result of that, unfortunately, is that every time the 
vendor updated the commercial product, it was many months of 
work, sometimes years of work to figure out how to backfit 
those upgrades to the version that the FBI was using in ways 
that would prevent it from catastrophically failing.
    So, the crazy thing out of all of that is that the FBI time 
and attendance system still runs on a restricted network that 
is not accessible when you're out of the office. So, if you 
wanted to record time and attendance, you have to physically be 
in an FBI location to do that.
    So, the disconnect, sir, is between the incentive to 
leverage and to buy commercial products and all of the business 
users, the mission users, who have their own needs, and 
figuring out how you balance the costs and benefits between 
changing the internal process so that you can use the standard 
product versus adopting it in order to meet some unique need or 
mission.
    Mr. Hice. Sounds like we are masters at complicating the 
issue is the bottom line, and it doesn't need to be that way.
    Mr. Cornelius, I want to come back to you with this, but I 
would ask all of our witnesses if you could respond in writing 
to this question because I would be interested in hearing from 
all of you.
    But what changes would you make to the structure and 
process for awarding project funds from the TMF?
    Mr. Cornelius. So, there's a couple of things. Given the 
current amount of appropriations, which is somewhere short of 
$150 million, which is all it's gotten over the last three 
years, the best we can do is make small-bore project delivery 
decisions.
    So, the board has, from my time at OMB, we had more than 50 
projects that were submitted, costing, I think, more than about 
$600 million, and we only had $150 million with which to try 
and dole out to that. In doing that, you can only support sort 
of agency-specific projects.
    I think the model needs to be flipped on its headfirst. I 
think Congress, including former Ranking Member Meadows, who 
was a big fan of the TMF, now the current Chief of Staff, 
should be pushing to make sure there's a billion dollars in TMF 
funding in the next phase 4 bill.
    Then OMB and GSA should be looking across the Federal 
enterprise to figure out where those investments should best 
be, whether it's an individual agency or hopefully in multi-
agency programs and process improvements and digital 
capabilities that agencies are learning about right now in the 
midst of the pandemic.
    So, I think if they had more money, plus if they allowed 
for both individual agency projects while also sort of looking 
across the Federal enterprise to make enterprise investments, 
that could lead to tremendous benefits, both now to fight 
COVID-19, as well as well into the future, and retire some of 
these legacies.
    Mr. Connolly. Would my friend allow me to just add to the 
point you're making?
    Mr. Hice. Yes.
    Mr. Connolly. Just real briefly.
    So, you called for a billion dollars in the TMF, the 
Technology Management Fund, which is, in fact, provided in the 
HEROES Act pending Senate action. I think you would agree, and 
I think my friend would also agree, that $25 million, as 
appropriated in the last appropriation, is simply meaningless.
    Mr. Cornelius. Yes, Congressman, it is wildly 
inappropriate. I spent the past several years in OMB working 
through the budget process and working with appropriators not 
to just talk about the value of the TMF, but to also find ways 
to do it.
    And, frankly, outside of an emergency situation like this 
where Congress can go above and beyond the sort of 302(b) 
allocations that they have on the normal Fiscal Year sort of 
appropriations cycle, you're never going to get that amount of 
investment that is necessary so that OMB and GSA and agencies 
can really start to transform the government.
    Mr. Connolly. Thank you.
    I took some of my friend's time. If you wish----
    Mr. Hice. No. Thank you, Mr. Chairman.
    Just by way of reminder, I would like to hear from the 
other witnesses on this to get their answers as well.
    Mr. Connolly. Certainly.
    Mr. Hice. Thank you. And I yield back.
    Mr. Connolly. Certainly. Thank you.
    Ms. Schank or Mr. O'Keeffe, do you wish to comment?
    Mr. O'Keeffe?
    Mr. O'Keeffe. Yes, I think that the gentleman covered it 
down very well. I think that the last time I testified on IT 
modernization, GAO told us there were 777 supply chain systems 
and 622 H.R. systems in the Federal Government. That was 10 
years ago. I would guess there are probably more than that. So, 
it's this ability to build that Mr. Bitko talked about which I 
think is the real enemy, customization.
    Mr. Connolly. Thank you.
    Ms. Schank, did you wish to comment?
    Ms. Schank. Yes.
    So, the customization piece versus buying, so I think we 
are working with a slightly outdated view of how tech gets 
built. It used to be that people would buy something and do a 
lot of customization. The example would be the FBI system. That 
sounds to me like that was a really old system that was 
customized and updated repeatedly. I mean, I'm guessing, but 
that sounds like a decades-old system.
    I think that modern technology is a lot more flexible. And, 
of course, there will always be some degree of customization. 
But no technologist would ever start a project without first 
thinking about what exists on the marketplace. That is just 
that's how you do it. Nobody is sitting there thinking, ``Oh, 
boy, I want to build something from scratch because it's fun.'' 
People will definitely look into what's out there first.
    Mr. Connolly. Thank you.
    I will say this. The FBI example is one I actually happen 
to know about wearing a different hat, and I can tell you that 
part of the problem was FBI. They kept on changing the scope of 
work. They kept on adding to it. They didn't have experts who 
understood the limits as well as expansive potential of 
technology. As a result, they absolutely designed something 
that could not work and would never work, because they really 
didn't understand how to create the terms of reference for a 
real contract that could provide a real product that worked.
    So, part of that problem is internal expertise in our 
Federal agencies in even understanding the scope of their own 
needs. And having translation between the highly technical and 
the operative at the layman's level is a real challenge for the 
Federal Government, especially, as Ms. Norton pointed out, as 
our work force ages and is less technologically savvy than the 
generations succeeding us, that gap grows.
    Anyway, let me see.
    Mr. Lynch, are you with us? Steve Lynch?
    Mr. Lynch?
    Is Mr. Massie coming back, Mr. Hice?
    Mr. Hice. I don't know.
    Mr. Connolly. OK. Mr. Grothman, is he coming back?
    Mr. Comer. I don't know.
    Mr. Connolly. Ms. Plaskett, are you with us?
    Ms. Plaskett. Yes, I am.
    Mr. Connolly. Great. You're recognized for five minutes.
    Ms. Plaskett. Thank you very much, Mr. Chairman.
    And thank you to all of the witnesses who are testifying 
today.
    I have just a comment and then a couple of questions 
quickly.
    On March 16, the Office of Personnel Management directed 
agencies to maximize use of telework in response to the 
coronavirus pandemic. Telework proved critical to ensuring the 
continuance of government operations during the pandemic. 
Nonetheless, the rapid shift to remote working exposed agencies 
to increased cybersecurity threats.
    So, prior to the coronavirus pandemic, the FBI received 
about 1,000 cybersecurity complaints a day. That number has 
since jumped to between 3,000 and 4,000 complaints per day.
    The Pandemic Response Accountability Committee reported 
that since the pandemic hit inspectors general have reported 
increased risk of data security breaches, disclosures of 
classified information, and targeted cyber-attacks and fraud 
schemes.
    So, I wanted to ask, Ms. Schank, how has outdated Federal 
IT exposed agencies to unique cybersecurity threats during the 
pandemic?
    Ms. Schank. So, I will preface this by saying I am not a 
cybersecurity expert. However, a combination of people working 
remotely and legacy IT, it does not surprise me that there have 
been--that cybersecurity has been an issue. And it's really not 
my area, so I'll stop.
    Ms. Plaskett. OK. Do any of the witnesses have any comments 
or questions on how the outdated IT exposes agencies during 
this time to cybersecurity threats?
    If not, Mr. Bitko, before joining ITI you served as the 
chief information officer at the FBI. At a high level, what 
cybersecurity vulnerabilities in Federal IT systems did you 
detect?
    Mr. Bitko. Congresswoman, thank you for the question, and I 
will wrap in a response to your prior question as well.
    Ms. Plaskett. Awesome.
    Mr. Bitko. Because there's an obvious connection here 
between them. And I'm also going to caveat that by saying, as 
the CIO my responsibilities were not in the FBI's cyber mission 
but in the management of the FBI's own internal IT resources.
    Nevertheless, just the nature of the organization and being 
an executive within the agency, there are certainly numerous 
opportunities to be exposed and work closely with our cyber 
investigative programs while I was at the FBI.
    The range of cyber incidents that are detected are too many 
to count. There are adversaries out there who will seek any 
opportunity that they can to take advantage of weaknesses in 
systems.
    Legacy systems are a very core part of that. You can look 
at both internally, within the Federal Government--the OPM 
breach is a really good example of legacy systems that were 
vulnerable because, since they were so dated, monitoring them 
is very difficult and wasn't done at the level that it should 
be.
    And you can translate that to a lot of the vulnerabilities 
that the FBI saw at state or local governments that were 
subjected to ransomware attacks. Again, many of those 
ransomware attacks were not because there weren't solutions to 
mitigate against those things, but because those locations, 
those localities were still running old, outdated systems. They 
hadn't patched. They hadn't made investments in cyber 
resources. And the result is, is that they were compromised.
    Mr. Bitko. I think, when you translate that to now, to the 
pandemic, it's exactly the same, just magnified. It's an 
opportunity for adversaries who are seeing a more distributed 
work force, leveraging all sorts of their own personal 
technologies in other ways to connect back to Federal 
information technology systems, and that presents an 
opportunity. The need to telework is clear. There's no doubt. 
But a lot of the security systems, the operation centers that 
are designed to monitor and collect all this data, they weren't 
built with the idea in mind that the work force is going to be 
20-or 30-or 100,000 agency users working from their home on a 
home computer and telecommuting in over a VPN or over a virtual 
desktop.
    So, I think that there is a real vulnerability there in 
that we as the public sector are just not monitoring at 
anywhere near the same degree that we should. So, that's an 
additional complicating factor that makes the risk high.
    Mr. Connolly. Ms. Plaskett, I wonder if you would have Mr. 
Cornelius respond to that as well, if that's all right.
    Ms. Plaskett. Oh, sure. Uh-huh.
    Mr. Cornelius. Thank you, Chairman.
    And thank you, Congresswoman.
    I think what has come out of the COVID response and the 
sort of maximum telework posture is that agencies that were 
already expanding the use of telework within their agencies 
already had a work force that was trained and capable of using 
these commercial technologies or these distributed 
technologies, like Mr. Bitko said, working through VPNs, 
virtual desktops, et cetera. So, agencies that had digitized 
the workflows and not just tried to digitize their work force 
were able to actually make this happen more effectively.
    So, I think I believe the practice, as well as GAO in their 
detailed response to the initial steps to deal with the COVID 
response, both highlighted that agencies that were already 
working to expand telework had a trained work force that knew 
how to do this so that they perhaps were able to better 
understand and spot phishing attempts that were trying to come 
through networks or trying to get them to click on suspicious 
links or were more capable of not having to make workarounds in 
order to meet their mission responsibilities and can instead 
work through the agency protocols and processes to do this 
securely and effectively.
    Thank you.
    Mr. Connolly. I thank you.
    And I thank you, Ms. Plaskett.
    Ms. Plaskett. Thank, Mr. Chairman.
    Mr. Connolly. What's that?
    Ms. Plaskett. Yes, Mr. Chairman, thank you so much for 
time, and I'm just hoping that at some point the witnesses can 
give us not only best practices but how should Congress 
structure funding to help the government best modernize IT and 
meet these challenges. But thank you for this great hearing 
where we can discuss these issues.
    Mr. Connolly. You know, you make a very great point, 
Congresswoman Plaskett.
    And I would just say I would hope that, as part of the 
post-pandemic assessment, we look at what did not work well and 
what did work well within the IT context, to your point, 
because if we don't take away the relevant lessons, we're going 
to repeat the mistakes.
    I have heard some success stories, as well as failures. So, 
I think you're absolutely onto that, and I'd be glad to work 
with you in perhaps talking to GAO to get ready for of that 
kind of analysis.
    And I assume, Mr. Hice, you'd join us in a bipartisan way 
with respect to that. So, thank you.
    Glenn Grothman, you're recognized for five minutes.
    Mr. Grothman. Thank you. First of all, I'd like to make a 
suggestion. I always love this hearing.
    Mr. Connolly. Certainly.
    Mr. Grothman. But there was a little disagreement at the 
beginning about the mask policy, and I think as long as I've 
been alive I've never been around a topic on which the experts 
so consistently get things wrong. I keep getting emails from 
different constituents saying, ``Why do I have to wear a 
mask?'' And while it's true you find experts who think it's 
good, we're wearing a mask, there are experts who are out there 
who think we shouldn't be wearing a mask. So, I'm going to 
suggest that we have a subcommittee hearing on masks, and it's 
certainly a hot topic back home. Nobody back home asks me about 
IT in the government, but they all ask about masks. So, it 
would be good for ratings.
    Mr. Connolly. You intrigue me, I would say to my friend, 
because you could put it in the broader context of, you know, 
experts.
    Mr. Grothman. Right. Experts on both sides.
    Mr. Connolly. Right. Right. And that might be a worthy 
hearing. So, we'll file that away. Thank you.
    Mr. Grothman. Good. Now----
    Mr. Connolly. Now, Mr. Grothman.
    Mr. Grothman. Back to the topic at hand, this will be 
either for Mr. Cornelius or Mr. Bitko.
    The Technology Management Fund was intended to provide 
agencies with access to funding that was not bound by the 
annual appropriation process. Can you describe why funding IT 
modernization projects should not be bound by single-year 
increments?
    Mr. Cornelius. Thank you, Congressman. It's a great 
question.
    So, most of the times we talk about retiring a legacy 
system, it means it's a system that's been built over years and 
years and years with subsequent years of funding and sort of 
more technology or products sort of glommed on top of it, which 
means, if there is an agency plan to retire that system, the 
likelihood is that it's going take multiyear funding. It's 
going take funding over multiple years to retire it. The system 
cannot just shut off automatically. So, you're going to need 
consistent funding in the outyears to do that.
    As we know, there's oftentimes disagreements between the 
executive branch and the legislative branch on sort of funding 
levels and things like that. So, agencies are often at the whim 
of appropriators and the appropriations process to do that. So, 
that's why an investment in the Technology Modernization Fund, 
those are no-year dollars, and the money is flexible so if that 
a project is going well, money--more money can be provided to 
help accelerate that modernization process and move it through 
more quickly. And if it is going poorly, the TMF board can help 
course correct or, you know, help that agency remediate some 
problems or discontinue the project all together so that it's 
not a project where the agency is committed to years and years 
and years of a contract when they already know the project is 
failing.
    Mr. Grothman. OK. Thanks.
    I'll give you a kind of a followup question and if Ms. 
Schank wants to weigh in, too.
    As more Americans continue to interact with the Federal 
Government to understand benefits and receive critical 
information, understanding the customer IT experience will be 
critical. What challenges do agencies face when trying to 
improve the design aspects of their systems?
    Mr. Cornelius. I'm happy to let Ms. Schank go first, or I 
can start. Her call.
    Mr. Grothman. She can go. It's her turn. We'll give her a 
shot.
    Mr. Connolly. Ms. Schank?
    Ms. Schank. Thank you.
    One of the huge barriers for agencies as they try to bring 
in customer experience into their systems is that there is a 
lack of feedback loops that are currently in place. So, 
traditionally, when you look to incorporate user research, you 
have a--there's an easy methodology. There's an easy way to do 
that, but a lot of agencies aren't collecting user feedback on 
specific pieces of how a certain agency is fulfilling its 
mission and in a meaningful way that then plugs into the design 
of the system.
    Did that--does that make sense?
    Mr. Grothman. Yes.
    Do you want to followup, Mr. Cornelius?
    Mr. Cornelius. Yes, Congressman, I think, again, it goes 
back to that issue I raised in my opening statement about the 
legacy being a cultural problem, is the dollars that any 
Federal agency's using to spend on technology supports a system 
and a program that is there to serve the public. So, the first 
issue before any agency thinks about a technology system or a 
program is sort of, how is the execution of that program and 
the underlying technology that makes it happen, how do we know 
that's going to benefit the citizens whose taxpayer dollars are 
the ones funding it?
    So, I think if agencies can start with citizens are not 
just there to allow the government to execute on a mission but 
the citizens are the recipients of that mission and they should 
be provided those benefits and those services effectively, the 
same way they get on their iPhone or, you know, with package 
delivery or anything else. So, I think that mindset of putting 
the citizen, putting the customers first would help sort of 
alleviate some of these bottlenecks we get where agencies are 
just designing systems for themselves and not for the end user.
    Mr. Grothman. Thank you.
    Mr. Connolly. Thank you, Mr. Grothman.
    Mr. Raskin, you are recognized for five minutes.
    Mr. Raskin. Thank you very much, Mr. Chairman.
    A quick point on the subcommittee health protocols. You 
know, if there are Members, as the ranking member suggested, 
and I have no reason to doubt him, but if there are members who 
are not coming in because they so resent the rule that we've 
adopted based on the Capitol Physician's advice, there are also 
Members like me who are here who are in Washington, who are at 
the Capitol, and I'm in my office because--simply because I 
just I can't subject people in my family to the risk of having 
Members not wearing masks for whatever reason they might have.
    I also think we should not be party to confusion and 
disinformation about masks. I'm not seeing any dispute at all 
from the expert medical authorities that we follow. The Centers 
for Disease Control is recommending cloth masks for everybody 
who is in public, in public spaces, and as well as social 
distancing. The World Health Organization is recommending 
masks. In fact, if you look in the countries that have actually 
brought the virus under control like in Europe, the masks have 
been central. And it has been the President's dereliction of 
duty in sending all kinds of mixed messages about masks that 
has made us now No. 1 in case count and No. 1 in death count 
around the world. So, there's really no confusion about this. 
And we should not be spreading confusion.
    Now, Mr. Chairman, as to the matter at hand, obsolete IT 
systems have created a lot of headaches for our constituents 
seeking unemployment benefits and stimulus checks. At our 
hearing last month, we found that our government didn't shut 
down during the pandemic. It ramped up to deliver new and 
existing services amid these extraordinary challenges. At many 
agencies that had modernized before, Federal workers could 
continue operations and serve constituents effectively because 
their updated systems allowed for remote work; not so for a lot 
of other agencies.
    We've been arguing for decades in the subcommittee that 
telework is important, and now the pandemic has finally forced 
government administrators to take remote work seriously. Some 
were ready, and others were not. We know that GSA was the 
Federal Government's biggest adopter of telework and that made 
it well-equipped to continue its work during the pandemic, but 
many agencies failed to invest in IT and deferred digitizing. 
And now they're calling back employees, putting the health and 
safety of these workers in danger because their leaders had 
failed to prioritize IT.
    The IRS asked staff to return to perform tasks that could 
be digitized, automated, or performed remotely like answering 
phones or processing mail.
    Mr. O'Keeffe, your company conducted interviews with many 
of the CIOs on their experience in modernizing IT and 
transitioning to telework in the pandemic. What were some of 
the lessons learned and best practices that emerged from this 
study?
    Mr. O'Keeffe. So, the CIO has across the board lauded 
telework. I think it's going to be very difficult to put the 
genie back in the bottle on telework. And I think, as Mr. 
Cornelius mentioned earlier, the idea of practicing telework 
before the pandemic struck, those agencies that had practiced 
and had systems in place were a lot more successful and those 
that went forward in terms of cloud computing also found their 
ability to telework and to be more agile, to be more customer-
centric significantly enhanced.
    Mr. Raskin. Thank you.
    We also have to work with technology out in the field. 
There are those who inspect mine safety, who inspect poultry, 
who audit agency operations. And these employees rely on tech 
as well.
    Mr. Bitko, when you were at FBI as the CIO, you had to 
manage a lot of agencies out in the field. How would you make 
sure today that your work force could continue operations 
during a global pandemic?
    Mr. Bitko. Thank you for the question, Congressman.
    There's no doubt that telework is essential to enabling 
that. It really comes back to, again, the point that Mr. 
Cornelius was making that the agency needs to be planning for 
this sort of environment and building technology that enables 
in the case of the FBI's agents who are sitting out there in 
the field to do their work. One of our goals was to go even 
beyond that, not just in the field offices, because they all 
have good connections, of course, but agents, their livelihood 
is out in the world, talking to people.
    Mr. Raskin. Yes.
    Mr. Bitko. The more technology we can give them actually to 
be effective while they're doing, the more effective they can 
be. So, I think it's the agency cultural change to that mindset 
of using technology.
    Mr. Raskin. Ms. Schank, how can the Federal Government do a 
better job ensuring continuity of operations during moments of 
national crisis that require rapid response?
    Ms. Schank. COVID and what we will potentially see again is 
what happens after decades of neglect and what that--what that 
looks like to us is that the technology is outdated. But if you 
dig into why the technology is outdated, what you come up with 
is that the Federal Government is short on internal technology 
teams and long on massive vendor contracts so--which is not say 
that building an internal agency team means an end to vendor 
contracts, but an internal agency team is certainly something 
that would be a lot more flexible and able to build a modern--
build a modern tech stack.
    Mr. Raskin. Thank you very much, Mr. Chair.
    I yield back.
    Mr. Connolly. Thank you so much, Mr. Raskin.
    Mr. Norman, you're recognized for five minutes.
    Mr. Norman. Mr. Cornelius, you mentioned in your opening 
statement technical debt. You said it leads to wasteful 
spending and outdated IT. Can you define exactly what that is?
    Mr. Cornelius. Yes, I think the easiest definition is 
technical debt is the continuance of old and outdated 
technology inside agencies or that agencies are reliant upon 
that is not modern and sort of updated to commercial best 
practices. So, agencies being reliant on old processes and old 
software or old systems to do things where modern commercial 
sort of analogous practices and capabilities are already 
available and are already widely adopted by citizens and 
companies.
    Mr. Norman. It could be a generational thing, too, couldn't 
it?
    Mr. Cornelius. I do think that a lot of the old 
technology--again, there's something that I always bring up is 
everything is abnormal until it's normal, and I think COVID is 
a tremendous sort of example of that. I mean, no one would have 
been in here, wearing mask, and sitting this far apart in a 
normal hearing. And I think that's the same thing for agencies. 
So, I think, to the chairman's point, there's going to be so 
many agencies and people with inside agencies that are going 
realize that they could have already done so much more and were 
so capable already because of the response that they've done 
due to distributed telework and the CARES Act and everything 
else.
    So, again, it's not just generational, but it's also sort 
of habitual. It's people are comfortable what they're 
comfortable with, and they'll use old, clunky systems if that's 
all they know how to do, rather than try pick up and sort of 
leverage the newest sort of whizbang technology.
    Mr. Connolly. Would my friend yield just for a second?
    Mr. Norman. Yes, sir.
    Mr. Connolly. Because I think you're making a really good 
point. It's also the cost.
    Mr. Cornelius. Yes.
    Mr. Connolly. The cost of retiring a legacy system can be 
in the billions of dollars and take multiple years, and you've 
got to retrain everybody, and it's just easier sometimes to 
decide, ``Let's put that off this year,'' and that keeps on 
going. And I think that's a real factor in management's 
decision to defer these kinds of things, and suddenly they wake 
up and realize they're 30 years late.
    I thank you for yielding.
    Mr. Norman. Yes, sir, Mr. Chairman.
    You know, and I agree because, you know, I don't know how 
you get--I don't know how you get that, particularly with the 
older generation, how you get that sunk into their heads that 
this pays off. It's keeping up with the times. And if you don't 
do that, then you're jeopardizing the whole system.
    Mr. Cornelius, this is for you, too. The GAO found that 
Federal--many of the Federal IT investments have suffered from 
a lack of effective project management. In the private sector 
you can take care of that. If you get ineffective project 
management, you deal with it. Either you make it effective or 
you get rid of that person or groups so that it's effective.
    How is--what's your opinion on the best way to tackle this 
and to get the problem solved and find from your, from where 
you sit, what your opinion of that statement is?
    Mr. Cornelius. Thank you, Congressman. So, I think it's a 
multifaceted answer, and I won't try to talk too long because I 
know you probably have some more questions but it's a couple of 
things.
    One, the work force needs to be well-trained and well-
equipped to know how to actually manage projects effectively. 
Project management, just like IT, just like finance, just like 
HR, acquisition, they're not just the other person's job that 
you work with that are in an office. They're part of how you go 
about sort of managing your day-to-day and how you go about 
executing your mission.
    A lot of the--another thing I found when I was in 
government is a lot of the project management, as I think you 
defined it in the private sector, is outsourced to a lot of 
these vendors who will come in and say that, you know, I will 
build what you whatever you want built, and then I will manage 
it however long you want me to manage it and update it. And 
you, all you have to do is make sure that we're hitting some 
certain milestones or metrics that you put out there.
    That is certainly a way of doing business, but I don't 
think that is the most effective--I don't think anything anyone 
in the private sector would do it that way, and I think Ms. 
Schank has referenced the fact that folks like the U.S. Digital 
Service and others have come in with that mindset and provided 
some good examples and opportunities for agencies to change. 
And they're not there to change it for them but they're there 
to show them there's a different way to leverage technology and 
to be more effective and to manage projects, to get lower costs 
and better outcomes.
    I think to the extent we can continue to proliferate and 
help all of the Federal work force understand that and be 
trained effectively would lead to a lot better outcomes in both 
the use and management of technology.
    Mr. Norman. And the bottom line is results. You get 
results, and it dovetails in with the technical debt that you 
were talking about.
    Mr. Cornelius. Absolutely. Like I said when Mr. Grothman 
was asking his questions, we have to treat the American 
taxpayers like customers because that's what they are. They are 
reliant on government benefits and services, but they should 
also be treated as recipients and as people that agencies are 
there to serve and agencies aren't just there to sort of manage 
their own operations as they see fit.
    Mr. Norman. Thank you.
    I think I'm out of time. I yield back.
    Mr. Connolly. I thank you. I thank you, Mr. Norman.
    The gentleman from California, Mr. Khanna, is recognized 
for five minutes.
    Mr. Khanna. Thank you, Mr. Chairman, and thank you for your 
continued leadership.
    I have a bill H.R. 5901, which Matt Lira helped us with and 
with Senator Portman to codify the Centers of Excellence at 
GSA. We've heard testimony they'll provide services to agencies 
to improve Federal IT across the executive branch.
    Mr. Cornelius, what role do you see these Centers of 
Excellence playing in help speeding up IT modernization 
throughout the Federal Government?
    Mr. Cornelius. Thank you, Congressman, and thanks for the 
call out to Mr. Lira. I had a great time working with him when 
I was at the Office of Management and Budget and he was at the 
White House.
    I think, to the extent that we can make it open and able 
for new ideas and new technical talent to come into the 
government to help either individual agencies internally or 
agencies sort of across the enterprise buy and use commercial 
technology to achieve mission outcomes, I think that should be 
celebrated. I think there have been conversations in Congress 
over the years on whether to codify things like the U.S. 
Digital Service or 18F or now the COEs, and while I think those 
are steps in a direction, I also think it's a little bit like 
having your cake before eating your broccoli with your meal. I 
think you need to focus on getting the entire work force up to 
speed and elevating the skills of all the people that are going 
around and are constantly managing these programs. And then we 
can think about the best way to sort of collect and manage and 
oversee and appropriate any of these digital services teams or 
other new types of business models inside government to drive 
better outcomes.
    Mr. Khanna. Thank you.
    Do any of the other panelists want to speak to that or 
about the oversight role that Congress should play on Centers 
of Excellence?
    Mr. Bitko. Congressman, if I could add an additional point 
to that, I think that one of the big challenges with Centers of 
Excellence or centralized services being provided is the FISMA 
challenges around reciprocity between different agencies. And 
if an agency, if one agency delivers a service or a Center of 
Excellence delivers a service, as long as FISMA is making it 
the responsibility of another agency's CIO or another agency's 
senior leadership to accept risks, they're unlikely to feel 
comfortable just accepting the work of the Center of 
Excellence. They're going to end up redoing a lot of it 
themselves.
    I think that is significant friction in the system for the 
idea of centralized service services being provided, and that 
is something that needs to be looked at.
    Mr. Khanna. What would you recommend as a solution to that?
    Mr. Bitko. I think, sir, FISMA has to be really modernized. 
I know that has been touched on here a little bit. FISMA is 
important, no doubt. Information security is essential to all 
the work that's being done, but, much like we're talking about 
modernizing legacy systems, security practices have to be 
modernized as well. And today there is still--there is a lot 
that's done in the individual agency interpretations of NIST, 
and the individual CIOs get to make decisions about what levels 
they're going to accept and how they're going to do it. I think 
there has to be some work put into thinking about how to do 
that and to provide for some consistency in interpretation of 
the NIST standards and FISMA across the board. Otherwise, 
again, we're going to still have these conflicts.
    Mr. Khanna. Do you or any of the panelists have a view how 
our Federal agencies when it comes to technology proficiency, 
technology use compared to the rest of the world? Are we one of 
the world's leaders? Are we lagging?
    Mr. O'Keeffe. If I might go back to the question about 
COEs, one point I would raise----
    Mr. Khanna. Sure.
    Mr. O'Keeffe. One point I would raise is it's inconsistent. 
So, the agencies that have been through the COE process, one 
would anticipate that they would do better on the FITARA 
scorecard than the agencies that have not been through the COE 
process. That does not seem to be the way that it plays out. 
So, there's kind of a head scratch on the COEs. Again, how do 
we simplify, and how do we understand how agencies are actually 
performing?
    Mr. Khanna. If you have ideas on how we can strengthen it 
as we work through this bill, we'd obviously welcome that.
    Mr. O'Keeffe. Yes, I think on the work force issue, I think 
it's in pockets, but there's definitely a requirement for 
training at scale in the Federal Government. So, when we talk 
about the Cyber Corps and such initiatives, we're talking about 
10's, 20's, 50's. We need to be talking about thousands. So, 
how do we create scale for IT work force training in the 
Federal Government? That's really the big question.
    Mr. Khanna. Very good point.
    Let me ask one final question. The--I passed last Congress 
the IDEA Act. The President had signed it, 21st Century 
Integrated Digital Experience Act. How would we benefit from 
agencies fully implementing the IDEA Act, and do we have any 
sense of whether it's working or not?
    Mr. Cornelius. May I, Congressman?
    Mr. Khanna. Please.
    Mr. Cornelius. So, first off, thank you for your leadership 
on the IDEA Act. I think it's an incredibly important piece of 
legislation. And it goes back to some of the questions we've 
had from both the majority and the minority on sort of how we 
make digital services' information websites more accessible, 
usable, and easier to understand for the public.
    And I think Ms. Schanks' opening statement, when she told 
that very heart-wrenching story of the lady who could not 
actually apply for benefits, is one--is a case in point for why 
something like the IDEA Act is important. And, frankly, I would 
request that my former colleagues at OMB hurry up and get the 
IDEA Act guidance out there. I think there's a lot of agencies 
that might still be waiting on the Office of Management and 
Budget to really help push them in the right direction and 
point them to where they should go, and I think that bill gave 
OMB a lot of deference when it came to guidance on the IDEA 
Act.
    But I will say from at least an industry perspective, you 
know, no company that is worth its salt would be up and running 
if it was not able to easily and effectively convey what its 
mission is and what its services are to potential customers. 
And so, I think I agree with you that we should continue 
leveraging the IDEA Act. And, frankly, I think that's one of 
the recommendations that my organization has made to 
Congressman Connolly and his staff on sort of a modernization 
of the FITARA scorecard.
    Mr. Connolly. Thank you.
    And I thank you, Mr. Khanna.
    We will continue working with you on the modernization. 
It's not frozen in stone. We just want to make sure we get the 
basics right before we start branching out.
    The gentleman from Kentucky, Mr. Comer, is recognized for 
five minutes. And congratulations on your selection as our new 
full committee ranking member. We welcome you.
    Mr. Comer. Thank you very much. I appreciate that. Look 
forward to working with you in the future.
    Mr. Cornelius, the Modernizing Government Technology Act 
and associated Technology Modernization Fund have been 
important steps forward, but the tasks of modernizing Federal 
IT systems is truly massive. It's my understanding that these 
take a very long time, are extremely complicated, and certainly 
cost a lot of money. They're similar to infrastructure projects 
like roads and bridges. Should we look at them in a similar 
manner as infrastructure projects, that is, multiyear 
appropriations?
    Mr. Cornelius. Absolutely. And Chairman Connolly actually 
took my compliment away from me. I was going to congratulate 
you on also becoming the ranking member----
    Mr. Comer. Thank you.
    Mr. Cornelius [continuing]. To the full committee, but I'm 
sure there's plenty of compliments to go around.
    Absolutely is the simple answer to your question. Most of 
the money, so not all costs that go into the $90-plus billion 
in Federal IT every year is the same about. About 75-, 76 
billion of that is just keeping the lights on. It's all this 
O&M dollars, just keeping the systems afloat. And there's very 
little there for development, modernization, and enhancement.
    So, I do think, while the Technology Modernization Fund is 
incredibly effective and what has happened on FITARA has been 
impactful when it comes to elevating the CIO and giving them 
authority, if most of the money is appropriated to individual 
programs or individual offices within agencies and they come up 
with their own decisions and it's just a sort of thumbs up, 
thumbs down from a CIO, it's very hard for them to really look 
at things across the enterprise and look at things from a 
multiyear perspective.
    So, to the extent that we can right size Federal IT 
spending within agencies and make those moneys perhaps 
multiyear or several-year dollars, I think there's a trade 
agencies would make in getting more flexibility for the money 
and allowing Congress and OMB to have stronger oversight of 
that spending.
    Mr. Comer. So, if we're going to require agencies to 
reimburse the TMF, what's the more realistic timeframe than 
three years on the reimbursement?
    Mr. Cornelius. Well, I think on the reimbursement, so 
especially as part of the $1 million that I think Mr. Bitko and 
I have both joined a letter in supporting, I think repayment 
when it comes to COVID-related issues perhaps should be looked 
at as sort of being done away with. If agencies are really 
trying to move fast to deal with COVID and they have got to 
leverage the team to have to do it and if Congress doesn't give 
more money for individual agencies, as they did in the CARES 
Act, then let's think about ways for projects that are relevant 
to COVID-19 to make that happen.
    But I think, broadly speaking, a lot of the agencies, at 
least the projects that were funded during my time at OMB, most 
of those were already well on their way to success, well on 
their way to repayment. So, I think the model works, but we're 
also operating in a very different timeframe, in a very 
different environment, especially in the middle of COVID.
    So, I do think there are changes both Congress should be 
looking at, as well as OMB and GSA should be looking at, to 
improve the way that fund is leveraged and the impact that it 
provides.
    Mr. Comer. Finally, how good a job are we doing at 
measuring what the associated savings from these projects are?
    Mr. Cornelius. It's a very difficult question, Congressman.
    Mr. Comer. Right. So, not a very good job.
    Mr. Cornelius. I would--I would think that--I would think 
that there's a place, if you're looking at agency legacy 
modernization plans--and I think GAO talked about that in their 
report--it's not just the plan that's important. It's the 
agency budget request that goes into that plan. It's the actual 
appropriations provided to that plan, and then it's the 
outcomes and then performance. So, it's not just enough to have 
a plan. You have to know if there's enough resources coming in. 
You have to know if the resources that Congress provides meet 
that need, and even if not, how are you using the moneys that 
are provided to actually get performance and outcome?
    So, I think that virtuous cycle between having a plan and 
being able to fund it, resource it, and acquire commercial 
technology effectively to retire old systems and move to new 
technologies, I think that that's something that where there 
can be a lot of power in both savings and in performance, which 
I think are two sides of the same coin.
    Mr. Connolly. Would my friend yield?
    Mr. Comer. Please. Go ahead.
    Mr. Connolly. Because I'd like to just add on to that. I 
mean, I think there are two things here based on my own 
experience of 20 years in the private sector. One is you can't 
have erratic budgets. Right? So, if you do get an agency head 
who says I'm going to make this a priority and then that agency 
head discovers in the next budget cycle his budget's been cut 
30 percent, all of a sudden that priority collapses.
    Second, though, we need agency heads to show leadership. 
It's not that different. It is different. But in the private 
sector if a CEO says, ``We're going replace our entire legacy 
system and you've got two years, Mr. Cornelius, so get it done, 
and if you don't, I'll find Mr. Comer; he'll do it,'' guess 
what happens? Resources get marshaled, you know, because people 
follow the directive of the management and management has to 
pay attention to it and make sure it is being done. So, it's 
not only money. It's also about management will and leadership, 
if we're ever going to get some of these legacy systems 
retired.
    I thank you for yielding.
    If you wanted to comment, Mr. Cornelius, feel free.
    Mr. Cornelius. Both Chairman Connolly and Ranking Member 
Comer, that is incredibly well said. It takes--and I mentioned 
this, I think, in my full written statement, not my opening 
remarks, which is it actually takes a commitment from 
leadership, agile acquisition authorities, multiyear funding, 
strong oversight, and a commitment from the work force to get 
this done.
    So, I think when you have those five pillars all together 
and you can look at things over a long period of time, not 
decades but hopefully, you know, a few years to move the ball 
forward, I think that's incredibly effective, and I want to 
commend a lot of the CIOs and even agency heads in this 
administration and in the previous administration who really 
understood that technology was the fundamental underpinning of 
how their agency functions and how it delivers services and 
really made IT a priority.
    So, we have a lot of great leadership in the executive 
branch and in Congress on that point.
    Mr. Connolly. I thank you.
    And I thank you, Mr. Comer, for yielding.
    Mr. Lynch, I understand that you're back with us.
    Mr. Lynch. Hello, Mr. Chairman, yes, I am.
    Mr. Connolly. Good. You're recognized for five minutes. 
Welcome.
    Mr. Lynch. Thank you, Mr. Chairman.
    And, you know, for the 20 years I've been in Congress, I 
can echo the chairman's concerns as well. We've been dealing 
with this issue consistently year to year, year in and year 
out. If there's any one area that shows how slow our government 
responds to reality and technological change, it's this issue. 
And we're at a point where we not only need to catch up to and 
renovate some of the legacy systems, but even some of our 
systems that have been able to maintain some level of 
competency are being outpaced now.
    I speak specifically to the blockchain network. So, there 
are a number of applications I think of blockchain that could 
help us enormously. I have a bill right now that was offered 
several months ago to put the biodefense stockpile on 
blockchain so it will be transparent, not an open blockchain 
but a closed blockchain, a private blockchain with government 
and some of our state partners.
    But I would just offer to any of our witnesses. Do we have 
the ability to try to leapfrog some of these legacy systems by 
adopting the blockchain, you know, a blockchain type system to 
replace some of the old, you know, bureaucratic, some of the 
outdated systems that we're using right now?
    Mr. Bitko. Congressman, there's no doubt that there is the 
capability in government to deploy sophisticated technology. It 
happens across many Federal agencies today. I think the 
question about whether blockchains should be used versus other 
technologies, it really comes into what's the specific process 
or problems that's trying to be solved? There are some cases 
where a blockchain might be a really good fit. There are going 
to be other areas where it's not necessarily the right thing. I 
think that it's important for, as IT investments are made, for 
Congress and for agencies to be careful about not being too 
prescriptive--right--because there will absolutely be times 
where, yes, we should use blockchains. But many of these legacy 
systems that we are struggling with now, they exist because 
there was some prescriptive requirement or some regulatory 
requirement or an agency process that was put in place years 
ago and that the agency is still complying with.
    So, every time we do that, that builds onto the complexity 
that Mr. O'Keeffe was talking about before. So, I think what 
that means, what I'm saying, is we need to find the right 
balance of encouraging investment in the right new technologies 
and the right cases without being so prescriptive that it 
limits other opportunities down the road.
    Mr. Cornelius. Congressman, if I may----
    Mr. Lynch. I was actually speaking to the idea of just, you 
know, a biodefense stockpile where you do have 50 state 
partners. We've got a menu of items that we believe are 
necessary going from, you know, pharmaceuticals to PPE and 
it's--it's--I don't know. I just think it lends itself to that 
blockchain system where multiple parties would be able to have 
transparency of what is in the stockpile and whether the 
Federal Government and our states are actually prepared. Right 
now, the current system is--it lacks all transparency. There's 
no accountability.
    You know, if you use the Ethereum network, for example, 
you're going to have smart contracts that actually, you know, 
use the Internet of Things to actually order PPE as it reaches 
its expiration date. Those types of innovations that might be 
helpful in the biodefense stockpile application, I agree with 
you wholeheartedly that you can't just simply say, ``OK, use 
the blockchain for every application and every need.''
    But I just thought that the biodefense stockpile, because 
it is rather static and well-defined, that it might be one of 
those functions that would actually help government begin to 
explore some of the new technologies and actually find, you 
know, government applications that could be served by that 
technology.
    Mr. Connolly. Mr. Lynch, did you want to invite other 
members of the panel to respond?
    Mr. Lynch. Please.
    Mr. Connolly. Ms. Schank or Mr. O'Keeffe.
    Ms. Schank. Yes, thank you.
    I want to reframe the conversation just a little bit 
because we were talking earlier about the idea that you're 
tearing down a bridge and building a new bridge when you think 
about replacing a legacy system, and I'm not--I think that's 
not exactly the right metaphor. So, I just want to put in 
everybody's minds the way that technology typically is 
developed today is to build something small and test it, launch 
it, and then build on that. So, that when we were talking 
previously about these multiyear contracts, yes, to replace 
everything that a legacy system does is likely a multiyear 
effort, but it could be a couple of months to replace a small 
piece of that and another couple of months to replace the next 
piece of that.
    So, I think it's very overwhelming to think about taking an 
entire legacy system offline and replacing it with blockchain. 
So, I think that it is a little bit easier to think about what 
does this thing do and how do we best--how do we make sure, 
with the current technology, we're doing that to the best of 
our ability? And the way that that--the technology that guides 
that may change. It likely will change. So, to echo what was 
just said previously about the--being technology agnostic and 
not too prescriptive.
    Mr. Connolly. I thank you very much.
    Mr. Lynch. Thank you very.
    I yield back. Thank you.
    Mr. Connolly. I thank you, Mr. Lynch. I thank you for 
joining us today.
    The chair will now recognize himself for five minutes.
    Mr. Bitko, could I followup on something you said about 
FISMA? Let me, first of all, invite your organization, as well 
as anybody else, to work with us in updating FISMA. I 
completely agree with you. I think the last time we even 
authorized FISMA or went through a reauthorization, I was a 
freshman. It was 10 years ago. So, that's an eternity in 
technology. So, we--I would invite you very much to be in touch 
with our subcommittee in reviewing an updated FISMA. I think 
that's a great idea.
    Let me ask you, Mr. Bitko, and you, Mr. Cornelius, and the 
others could comment as well. We had a hearing last week on the 
Solarium Cyber Commission, and one of its recommendations was 
that effectively to create a cyber czar. And while in and of 
itself that may be a great idea, I am concerned that we have 
a--OK, now we'll have a CTO; we'll have a CIO; we'll have an 
information security chief; we'll have a science and technology 
adviser; and now we'll add a cyber czar. We're trying to, 
through FITARA, evolve into a primus inter pares where there's 
one CIO vested with the responsibility for making these 
investments and making them work, including making sure they're 
cybersecure.
    And I just wonder if you would have any thoughts or 
concerns to share with us about that kind of management 
structure.
    Mr. Bitko, did you want to comment first? And then I'll 
call on Mr. Cornelius.
    Mr. Bitko. Certainly, sir. Thank you for the question.
    In general, I think we support the idea of a cyber czar. 
There is, I think, a need for somebody who's providing that 
coordination. The mission, as I understand the cyber czar, is 
different from the CIO, is different from the chief information 
security officer. And there is a need and a role for all of 
those. I do think it's a question about----
    Mr. Connolly. Could I interrupt you, Mr. Bitko, though? I 
mean----
    Mr. Bitko. Please.
    Mr. Connolly. All right. Let's stipulate that makes sense. 
But would you not agree that the cyber czar can't do a great 
deal if he's dealing with 40-year-old legacy systems, that the 
upgrades we're talking about have to happen to create the 
predicate of a cybersecure environment? And he or she is not 
responsible for those investments. The CIO is.
    Mr. Bitko. Sir, there's no doubt that there is a close 
dependency between the cyber czar's piece of the mission that 
is about the cybersecurity and the investment in legacy systems 
and modernization and the work that's being done at the OMB-CIO 
level and at the CISO level. Those things all have to work well 
together.
    I think you're hitting on a point that, in the private 
sector, this is an ongoing topic of discussion as well. Exactly 
how all these different entities should be reporting into an 
organization is the thinking on that continues to change and 
evolve. You can look at some organizations today where the 
enterprise CISO, for example, in many large banks doesn't 
report to the CIO, but it reports directly up to the CEO and 
the chief operating officer, recognizing the importance of the 
security mission in and of itself. Even though it's not a cost 
center in the same way that other parts of the business might 
be, it's so important to the mission.
    I think that some of what I'm saying here is that we need 
to raise the game of the entire Federal Government and the 
knowledge of all of our senior leaders about these technology 
issues, about cybersecurity issues across the board. I think 
that a way to do that is to have there be somebody who's 
responsible, looking across all those things. But another way 
to do it is to realize that the challenge and the mission is so 
broad here that it's more than a one-person job. Absolutely 
some work needs to go into figuring out how all those pieces 
work together or----
    Mr. Connolly. I----
    Mr. Bitko [continuing]. They won't be successful.
    Mr. Connolly. I certainly agree with you.
    But when you ask yourself what could go wrong with that 
kind of nonhierarchical overlapping set of responsibilities to 
something so important, one is somewhat concerned. It's not 
like it's worked well up to now. And adding one person vested 
with cyber has the risk, knowing the Federal Government, of 
creating a new--with the best of intentions--a new silo. Well, 
that's her responsibility or his responsibility, not mine. And 
that is of concern.
    Mr. Cornelius, did you want to respond to that?
    Mr. Cornelius. Thank you, Congressman.
    I generally echo Mr. Bitko's comments about the cyber czar. 
And I would, as I understand the recommendation, one of the 
responsibilities of the cyber czar would be to help sort of 
coordinate and understand and oversee budgets for individual 
Federal agencies when it comes to their own cybersecurity 
posture but to also do this sort of higher level cybersecurity 
coordination across FBI, CISO, the IC, other places.
    And I do think coordination across these agencies with what 
I will call sort of--``offense'' is not the right word, but 
sort of outward-facing cybersecurity responsibilities versus 
agency CISOs, which have internal-facing cybersecurity 
responsibilities, I do think stronger coordination there could 
lead to some better outcomes.
    Mr. Connolly. Yes. Because we're so good at coordination in 
the Federal Government.
    Mr. Hice. Mr. Chairman? Mr. Chairman?
    Mr. Connolly. Yes, Mr. Hice.
    Mr. Hice. Just real quickly, I would like to say there are 
several on our side that would share some concerns. It's 
certainly an issue that needs discussion and needs to be worked 
through, but there are certainly as well some very serious 
concerns. We would be happy to work with you as we go through 
this process.
    Mr. Connolly. And as you know, Mr. Hice, I share your 
concerns. It's not that it's a bad idea in and of itself. But 
how will it work in the context that exists? And we want it to 
work. We certainly agree, all of us, that cyber is a growing 
concern. We know there are cyber-attacks right now as we speak 
on Western institutions that are trying to develop a vaccine, 
for example. So, we all understand that. The question is, 
what's the best way to do it? And I want to make it work. And I 
know you do as well, Mr. Hice. So, those are shared concerns.
    Let me end, if I may, with one more question put to each of 
you on the panel. Give us a grade for how well, from an IT 
point of view, the Federal Government has done during this 
pandemic and economic collapse. And who's your favorite example 
of either getting it right or kind of not getting it right?
    I'm not trying to flail anybody, but I think lessons 
learned are really important, and I gave some of mine: E-Tran 
at SBA, some of the IRS failures in terms of getting out the 
direct payment checks. Certainly, at the state level, the 
collapse of unemployment systems on an IT basis is very painful 
to watch and experience.
    Mr. O'Keeffe, would you like to start first?
    Mr. O'Keeffe. Thank you, Mr. Chairman.
    We executed a program called CIO Crossroads where we 
interviewed each of the Federal CIOs and asked them for their 
pandemic experience, and overall, I would give the Federal CIOs 
an ``A'' for effort. Everybody was working around the clock to 
try and make things happen. At the overall level, Suzette Kent 
did a fantastic job bringing the CIOs together.
    Were there challenges in many of the legacy systems? Yes. 
And what we saw was those agencies that have already made the 
jump to the cloud were much more effective. And agencies like 
SBA, which had challenges, I would applaud the work of Maria 
Roat and Guy Cavallo over at SBA who in the middle of this 
storm when there were challenges at SBA, managed to have the 
authority to shut down legacy systems and make hard 
transitions.
    So, I think overall the CIO corps did very well. The 
agencies have their challenges, and it reinforces the 
requirement to move to the cloud and also elevates the role of 
the CIO. So, we need to double down on FITARA.
    Mr. Connolly. Thank you.
    Ms. Schanks.
    Ms. Schank. Thank you. I was a terrible student. So, I 
don't want to give anyone grades, but I will say that----
    Mr. Connolly. Oh, come on. We're about to have a hearing 
next week where we give every Federal agency a grade. Do you 
want to cop out?
    Ms. Schank. I think that it's an unfair assessment because, 
you know, when something isn't working well at a baseline 
level, going back to the bridge example: If you have a bridge 
and it does well with everyday traffic, but then suddenly there 
is 10 times the amount of traffic, it in theory should built to 
sustain that, but a lot of our tech systems at the Federal 
level are really only and also at the state level are really 
only keeping up with--you know, they're barely making it 
through just the everyday. So, then the pandemic are tenfold.
    I will say that the IRS, when after the CARES Act passed, 
there was a - non-filers were not able to file, and we 
actually, at New America, did work to discover that hole. And 
as soon as we made that public, the IRS did very quickly send 
out a tool for non-filers to be able to file for the stimulus. 
So, I will give them credit for that. Should it have occurred 
in the first place? No. I think that's--yes, thank you.
    Mr. Connolly. Well, if I could just add to your point, I 
mean, we're not trying to lay blame. Let's take IRS. IRS had 
trouble in part because it experienced over a 10-y ear period a 
20-percent cut in its budget, and it was starved of resources, 
including IT resources. So, how can one be surprised that, when 
all of a sudden, we are faced with a pandemic and an economic 
collapse of almost unprecedented proportions, IRS doesn't have 
the capacity to respond with the alacrity we would like? That's 
on us for the resources we deprived it quite consistently over 
a 10-year period.
    So, I'm not trying to give a grade where, you know, we're 
going to bring them in and flog them before the public. We bear 
some responsibility, but we need to identify performance, and 
we can all then argue about or debate about what contributed to 
that performance.
    Mr. Bitko, did you want to comment on what kind of grade 
you might give the Federal Government in terms of response to 
these twin crises and any candidate you want to praise or maybe 
highlight in terms of significant concerns or failures?
    Mr. Bitko. So, I would agree with the A for effort comment 
from Mr. O'Keeffe. I think lots of Federal agencies put a lot 
of hard work in and managed to stay in operations and keep 
going, and that's, frankly, impressive and probably better than 
I would have anticipated at the very beginning of the crisis.
    I think where the grade is maybe a little bit less good is 
in the COOP planning that agencies would have been doing 
beforehand where the COOP planning was based on, you know, post 
9/11 or even going back to the cold war era and you need to be 
out of the immediate D.C. area. So, agencies have warehouses 
out in West Virginia or out in Virginia where employees would 
go work and, then obviously it is not a viable situation today 
and that highlights that some of those planning processes need 
to really be rethought.
    And I think this is a place where agencies and CIOs need to 
do a better job of integrating that thinking together and 
understanding the technology is so fundamental to the mission 
that there are other, better, different solutions than having a 
warehouse out in the middle of nowhere where you cram a 
thousand people into it with a bunch of computers.
    But I do think that agencies figured out how to get past 
that, and so that is an impressive recovery, and I will use the 
opportunity to laud my former agency who was not an agency that 
was disposed to telework by any means. The mindset definitely 
was you got to be in office to do the job and telework is the 
exception only in extreme circumstances. They managed to deploy 
technologies, leveraging the cloud, leveraging virtual 
desktops, leveraging modern solutions.
    And from what I hear from a lot of my former colleagues 
now, they're sitting there, saying: Why are we ever even going 
to go back into the office? We're working so effectively 
remotely now, which I think is a great thing. I think it puts a 
challenge on government agencies for long-term strategic 
planning when you've had capital budgets based on big 
facilities and rent for space for the entire work force. Is 
that the right model going forward?
    And I think that's something that is a question Congress 
should be asking. You know, do we need to plan for it? If the 
agency has 50,000 employees, 50,000 desks that employees are 
going to come in and sit at, or can we get by with a lot less 
than because we delivered successful remote work?
    Mr. Connolly. Good point.
    And I think, at some point, that's going to be a worthy 
study in terms of permanent quasi permanent changes post-
pandemic and certainly workplace changes are going to be 
considerable, and I agree with Mr. O'Keeffe. Telework is 
absolutely going to be a permanent part of the future, looking 
forward. Whether it replaces all physical work, that's a 
different matter. I doubt it. But certainly, it's going to be a 
tool in the kit bag and far more pronounced and commonplace 
than it has been in the past.
    Mr. Cornelius, you get the last word on that question.
    Mr. Cornelius. Thank you, Congressman.
    And I will take your bait and say that I think Congress has 
actually done a pretty good job of dealing with the COVID 
response. I mean, you did----
    Mr. Connolly. Thank you very much. This hearing is 
adjourned.
    Mr. Cornelius. But, in all seriousness, I mean, when this 
happened you didn't go and just build new hearing rooms. You 
used WebEx, which is a commercial capability, to do this. Now 
you're doing a little bit of both. This is what the hybrid 
hearings are.
    But, you know, I think that's a very salient point of how 
you show from a legacy mindset of, ``Well, we can't meet in 
person; let's go find different ways to meet in person,'' to, 
``We've got this great commercial technology; maybe we should 
use that to have hearings and build records and everything 
else.''
    So, I do--and to the executive branch's credit, you know, I 
think of something like the Paycheck Protection Program. I 
mean, the SBA was responsible for getting more money than was 
allotted in all direct spending in the American recovery and 
investment act out themselves in less time than agencies spent 
those Recovery Act dollars.
    So, you know, obviously doing that is going to cause some 
complications, but I think SBA acquitted themselves quite 
nicely, and I think it's because of tremendous leadership at 
the top of the agency with both their former and current CIO. 
Investing in cloud, investing in a lot of these modern 
commercial capabilities, they were able to do that.
    And the last point I'll make--and we've talked about this 
with this sort of funding and everything else--is I think 
Congress--I think there's a great analogy that's happening 
right now in the House of Representatives. It's my 
understanding that you-all are considering the Great American 
Outdoors Act this week, and I think it's the perfect analogy to 
what we've talked about with legacy IT. I mean, agencies or, 
you know, the National Park Service has spent years being 
underfunded and could not actually go back and invest in all of 
the upkeep and maintenance they needed to do on park lands. And 
now Congress has recognized it and said, ``All right; we're 
going find a way to make sure this is funded going forward so 
that you can do that.''
    And I think, one, I commend Congress on that, and I hope 
that they'll move forward; and, second, I hope Congress takes 
that same position when it comes to legacy technology. And it 
will be a different challenge, and it will be more complicated 
because it crosses all agencies, and it's not just about one 
individual government--one government program or one agency.
    But, you know, I think the only way that we're going 
continue to learn from COVID and really take the lessons and 
the good and the bad that are happening right now as we sit 
here and embrace those challenges and, you know, or overcome 
those challenges and embrace the opportunities that COVID has 
provided is to ensure that there's enough funding and enough 
accountability and enough flexibility for agencies to buy and 
use commercial technology to deliver better outcomes for 
citizens. Thank you.
    Mr. Connolly. Thank you.
    And I would just say one of the questions that did not get 
asked often enough, quite frankly, in putting together the 
CARES Act or the HEROES Act, for that matter, is, what's the 
capacity of the recipient agency to be able to do this? You 
mentioned SBA. We changed eligibility. We pumped more money 
into SBA than at least 10 years of its budget in less than 10 
weeks. We wanted them to expand financial institutions that 
could carry those portfolios. We changed, simplified the 
application, and we were willing to convert it under certain 
minimum circumstances from a loan to grant. Now what's the 
capability of reprogramming your system SBA, let alone also 
monitor this for fraud; for, yes, you're eligible/no, you're 
not; for determination of amounts; on and on and on?
    And the same thing with unemployment insurance. We changed 
eligibility. We extended the time period. We added $600 a week. 
That all had to be reprogrammed in 50 individual systems. And 
then we broadened eligibility to gig workers, sole proprietors, 
self-employed. And, of course, again, the volume was enormous.
    So, you know, we had 47 million people file for 
unemployment insurance in this time period, and what we found 
was individual IT systems in the states were simply not capable 
of handling the volume or reprogramming the eligibility and the 
terms. And many of them have legacy systems that still use 
COBOL, to go back to the late 1970's.
    So, we need to pay more attention to both the Federal 
recipients of Federal money and the state recipients, if we're 
concerned about efficacy and making sure that we're minimizing 
the pain out there that we're trying to address. IT is integral 
to that. It's not kind of a sideshow that we can get around to.
    So, anyway, I thank all of my panelists. I thank my 
colleagues for making today possible.
    And, Mr. Bitko, don't forget the invitation to talk to us 
about FISMA.
    Mr. Bitko. Can do. Thank you, sir.
    Mr. Connolly. OK. All right.

    So, without objection, all members have five legislative 
days within which to submit additional written questions or 
material. Further, witnesses through the chair will forward 
those to the witnesses and would ask for their speedy response.

    With that, this hearing is adjourned.

    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
